IN THE SUPREME COURT OF THE UNITED STATES
No. -M.S., WILLMAN
Petitioner,
v.
ATTORNEY GENERAL OF THE
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I, Daniel C. Willman, counsel for Petitioner M.S. Willman, hereby certify per
S.Ct. Rule 29 (4) that on November 24, 2020, I served three (3) copies of Petitioners’
Petition for a Writ of Certiorari on 8 ½ x 11 paper, each with an accompanying
appendix on Respondent.
I also served per S.Ct Rule 33.l(g,) a Certificate of compliance and Proof of
Service upon Respondent, the Office of the Solicitor General of the United States, at
the address below via The United States post office priority mail.
Tracking No. SG-9505 5104 3501 0329 2670 21
Tracking No. S.CT 9505 5104 3501 0329 2670 14

included with electronic filing. I

further certify that all parties required to be served have been served.
Solicitor General of the United States,
Room 5616, Department of Justice,
950 Pennsylvania Ave., N. W.,
Washington, Dc 20530-0001.

Dated: November 24, 2020

S/Daniel C. Willman
Daniel C. Willman
Counsel for Petitioner
P.O. 606
Pinckney, MI 49169
248-231-0705
danielcwillman@aol.com

